                         UNCLASSIFIED

                United States Department of State
              and the Broadcasting Board of Governors
                   Office of Inspector General




            Memorandum Report

          Information Security Program Evaluation:
              Broadcasting Board of Governors



Report Number IT/A-02-07, September 2002 (UNCLASSIFIED VERSION)




                        UNCLASSIFIED
                                            UNCLASSIFIED



                            MEMORANDUM REPORT IT-A-02-07

                           Information Security Program Evaluation:

                                 Broadcasting Board Of Governors

                                               September 2002



In response to the Government Information Security Reform Act (GISRA),1 the
Office of Inspector General (OIG) performed an independent review and evalua-
tion of the information security program of the Broadcasting Board of Governors
(BBG). GISRA provides: (1) a comprehensive framework for establishing and
ensuring the effectiveness of controls over information technology resources; and
(2) a mechanism for improved oversight of federal agency information security
programs. The specific objective of OIG's review was to determine whether BBG
is effectively implementing the requirements of GISRA. The purpose, scope, and
methodology for OIG's review are discussed in appendix A.



RESULTS IN BRIEF
OIG's evaluation of the effectiveness of the BBG's information security program
concluded that BBG has made progress, but more must be done to comply with
GISRA. BBG has developed an agency-wide information security program, and it
has performed program-level self-assessments and documented the results of its
self-assessments in its quarterly reporting of the agency's plans of action and
milestones to the Office of Management and Budget (OMB). Included in this
reporting was the identification of 37 information security weaknesses, of which
20 have been corrected. Also, BBG is in the process of hiring a contractor to
develop and revise required information security-related policies and procedures to
satisfy its needs.

    OIG also found several key areas of security that still require management
attention. Specifically, it found that BBG needs to develop an incident response
process and reporting procedures to share information effectively on common
vulnerabilities and threats. Also, OIG concluded that BBG lacks security and
contingency plans at the systems and major application level and needs to develop

 1
     Public Law No. 106-398, Div. A, Title X, Subtitle G., 114 Stat. 1654A (2000), 44 U.S.C. 3531 et seq.


OIG Report No. IT/A-02-07, Information Security Program Evaluation: Broadcasting Board of Governors, September 2002   1 .

                                            UNCLASSIFIED
                                          UNCLASSIFIED



      these plans to meet its information security requirements and comply with GISRA.
      Lastly, OIG found that BBG lacks an information security training program and
      must develop and implement a program that addresses the needs of the agency and
      its employees.



      BACKGROUND
      The U.S. International Broadcasting Act of 19942 created BBG as a self-governing
      element within the former United States Information Agency, which provided some
      administrative, technical, and management support to BBG. The Foreign Affairs
      Reform and Restructuring Act of 19983 granted BBG independence from the
      United States Information Agency on October 1, 1999. BBG is responsible for
      overseeing all U.S. government-funded, civilian broadcasting, including the opera-
      tions of the International Broadcasting Bureau (IBB), which includes the broad-
      casting entities of Voice of America (VOA), WorldNet Television and Film Ser-
      vice, and Office of Cuba Broadcasting. BBG also oversees two grantee organiza-
      tions: Radio Free Europe/Radio Liberty and Radio Free Asia.

          Information security is an important consideration for any organization that
      depends on information systems and information networks to carry out its mission
      or business. Information-supported government operations, including those at
      BBG are at increased risk. The dramatic expansion and rapid increase in the use of
      the Internet has changed the way the U.S. government communicates and conducts
      business. However, without proper safeguards, this widespread interconnectivity
      poses significant risks to the infrastructure it supports and makes it easier for
      individuals and groups to eavesdrop on or interfere with government operations,
      obtain sensitive information, commit fraud, disrupt operations, or launch attacks
      against other information networks and systems.

          Faced with growing concerns about information security risks to the federal
      government, the Congress passed and President signed GISRA into law in late
      2000. GISRA provides: (1) a comprehensive framework for establishing and
      ensuring the effectiveness of controls over information resources that support
      federal operations and assets; and (2) a mechanism for improving oversight of
      federal agency information security programs. Specifically, GISRA requires each
      agency to:

      2
          Public Law 103-236, Title III, Sec. 314.
      3
          Public Law 105-277, Division G.



2 .         OIG Report No. IT/A-02-07, Information Security Program Evaluation: Broadcasting Board of Governors, September 2002


                                          UNCLASSIFIED
                                            UNCLASSIFIED



•    identify, use, and share best security practices;
•    develop an agency-wide information security plan;
•    incorporate information security principles and practices throughout the life
     cycles of the agency's information systems; and
•    ensure that the information security plan is practiced throughout all life cycles
     of the agency's information systems.
    In addition, GISRA assigns the agency's Chief Information Officer (CIO) the
authority to administer key functions under the statute, including:
•    designating a senior information security official who reports to the CIO;
•    developing and maintaining an agency-wide information security program;
•    ensuring that the agency effectively implements and maintains information
     security policies, procedures, and control techniques; and
•    training and overseeing personnel with significant responsibilities for informa-
     tion security.
    Finally, in addition to a number of other provisions, GISRA requires that each
agency have an annual independent evaluation performed of its information
security program and practices. OIG or the independent evaluator performing a
review may use any audit, evaluation, or report relating to the effectiveness of the
agency's information security program. The agency is required to submit the
independent evaluation, along with its own assessment, to OMB as part of its
annual budget request.



OVERVIEW OF BROADCASTING BOARD OF GOVERNORS
INFORMATION SECURITY PROGRAM
Beginning early in 2001, BBG initiated a formal agency information security
program to include the assignment of responsibilities, development of system
security plans, and establishment of policies and procedures. BBG's information
security program plan, issued in September 2001, identifies the CIO as the overall
accountable official responsible for establishing agency information management
policy and the agency information security program. In addition, the plan recog-
nizes five functional areas4 within BBG's overall structure and designates the
directors of these areas as program officials with responsibilities for developing and

4
 The five functional areas consist of Office of Computing Services, Office of Cuba Broadcasting, Office
of Internet Development, Office of Engineering and Technical Services, and VOA Broadcast Operations.

OIG Report No. IT/A-02-07, Information Security Program Evaluation: Broadcasting Board of Governors, September 2002   3 .

                                            UNCLASSIFIED
                                       UNCLASSIFIED



      implementing a risk management-based security program to protect the information
      and information systems under their control. Lastly, the plan establishes a broad-
      cast technology steering committee responsible for providing integrated technology
      to the agency for all operational and administrative activities.

          To address the GISRA requirements for developing system-level security plans
      and performing program and system-level self-assessment reviews of general
      support systems5 and major applications,6 BBG formed five functional areas. In
      each functional area, the program manager grouped all systems and applications
      together under one system security plan and performed an annual program-level
      review of the functional area. The results of the self-assessments were then
      compiled and reported in the agency's plans of action and milestones (POA&M).
      Under GISRA, the POA&M must reflect all known security weaknesses within an
      agency, and be used as the authoritative management mechanism to prioritize,
      track, and manage all agency efforts to close security performance gaps.



      REVIEW FINDINGS
      Self-Assessments Need To Be Documented

          BBG performed security self-assessments on its information systems in FY
      2001, but the methodology and scope for the assessments were not documented.
      At the time of this review, BBG had not completed its FY 2002 self-assessment
      reviews. However, the CIO told OIG that these assessments will be completed
      using National Institute of Standards and Technology (NIST) guidance by the end
      of FY 2002. GISRA requires annual reviews of each agency-wide security program
      and system by senior management officials to ensure the protection of agency
      systems and data contained within the systems. The depth and breadth of the
      annual reviews depends on the risk to the system, completeness of prior reviews,
      and adequacy of the agency POA&M.

          In FY 2001, BBG's five functional area managers completed self-assessment
      reviews and documented 36 information security weaknesses in BBG's POA&M.
      During FY 2002, one additional weakness was identified and corrected, while 19
      of the original weaknesses were also corrected. Table 1 shows by control category,

      5
        OMB Circular No. A-130, Appendix III defines a general support system as a set of interconnected
      information resources under the same direct management control and to share common functionality.
      6
        OMB Circular No. A-130, Appendix III defines a major application as an application that requires spe-
      cial security attention because of the potential risk or harm from its loss, misuse, or unauthorized access.

4 .      OIG Report No. IT/A-02-07, Information Security Program Evaluation: Broadcasting Board of Governors, September 2002


                                       UNCLASSIFIED
                                                                                                                                                                         UNCLASSIFIED



                        the 17 remaining weaknesses defined in BBG's POA&M. For a detailed exhibit of
                        BBG's information security weaknesses by functional area, see appendix B.

                        TABLE 1: BROADCASTING BOARD OF GOVERNORS INFORMATION
                        SECURITY CONTROL WEAKNESSES




                                                                                                                                                                                                                                                                                                         ○
                                                                                                                                                                                                                                                                                                         ○
                    Control Objectives                                                                                                                                                                                                                                                                                   Total Weaknesses




                                                                                                                                                                                                                                                                                                         ○
                                                                                                                                                                                                                                                                                                         ○
                                                                                                                                                                                                                                                                                                         ○
                                                                                                                                                                                                                                                                                                         ○
                    Management Controls




                                                                                                                                                                                                                                                                                                         ○
                     Risk Management                                                                                                                                                                                                                                                                                                             4




                                                                                                                                                                                                                                                                                                         ○
                                                                                                                                                                                                                                                                                                         ○
○       ○       ○        ○       ○       ○       ○       ○       ○       ○       ○       ○       ○       ○       ○       ○       ○       ○       ○       ○       ○       ○       ○       ○       ○       ○       ○       ○       ○       ○       ○       ○       ○       ○       ○       ○       ○       ○       ○   ○   ○   ○   ○   ○   ○   ○    ○   ○   ○   ○   ○   ○   ○   ○   ○




                                                                                                                                                                                                                                                                                                         ○
                                                                                                                                                                                                                                                                                                         ○
                    Operational Controls




                                                                                                                                                                                                                                                                                                         ○
                     Physical and Environmental Protection                                                                                                                                                                                                                                                                                       1




                                                                                                                                                                                                                                                                                                         ○
                                                                                                                                                                                                                                                                                                         ○
                     Contingency Planning                                                                                                                                                                                                                                                                                                        2




                                                                                                                                                                                                                                                                                                         ○
                                                                                                                                                                                                                                                                                                         ○
                     Data Integrity                                                                                                                                                                                                                                                                                                              2




                                                                                                                                                                                                                                                                                                         ○
                                                                                                                                                                                                                                                                                                         ○
                     Documentation                                                                                                                                                                                                                                                                                                               1




                                                                                                                                                                                                                                                                                                         ○
                     Security Awareness, Training, and Education                                                                                                                                                                                                                                                                                 1




                                                                                                                                                                                                                                                                                                         ○
                                                                                                                                                                                                                                                                                                         ○
                                                                                                                                                                                                                                                                                                         ○
    ○       ○       ○        ○       ○       ○       ○       ○       ○       ○       ○       ○       ○       ○       ○       ○       ○       ○       ○       ○       ○       ○       ○       ○       ○       ○       ○       ○       ○       ○       ○       ○       ○       ○       ○       ○       ○       ○   ○   ○   ○   ○   ○   ○   ○   ○    ○   ○   ○   ○   ○   ○   ○   ○   ○




                    Technical Controls


                                                                                                                                                                                                                                                                                                         ○
                                                                                                                                                                                                                                                                                                         ○
                      Identification and Authentication                                                                                                                                                                                                                                                                                          2

                                                                                                                                                                                                                                                                                                         ○
                                                                                                                                                                                                                                                                                                         ○
                      Logical Access Controls                                                                                                                                                                                                                                                                                                    3
                                                                                                                                                                                                                                                                                                         ○




                      Audit Trails                                                                                                                                                                                                                                                                                                               1
                                                                                                                                                                                                                                                                                                         ○
                                                                                                                                                                                                                                                                                                         ○
                                                                                                                                                                                                                                                                                                         ○
                                                                                                                                                                                                                                                                                                         ○




                    Total Control Weaknesses                                                                                                                                                                                                                                                                                                     17
                                                                                                                                                                                                                                                                                                         ○
                                                                                                                                                                                                                                                                                                         ○
                                                                                                                                                                                                                                                                                                         ○




                        BBG Lacks Adequate Information Security
                        Policies and Procedures

                             OIG found that BBG's information security policies and procedures were
                        outdated and incomplete. Agencies are required by GISRA to develop and imple-
                        ment security policies, procedures, and controls, which provide each system with
                        security protections equal to the risk of system operations. In a recent risk assess-
                        ment, an independent contractor reported that IBB lacked defined security policies
                        to address configuration management and installation of non-mission related
                        software. BBG's information security program includes issue-specific policies, such
                        as issuing e-mail reminders to information users about viruses, electronic mail
                        attachments, installation of user software, participation in chat rooms, and security
                        threats. Still, OIG found that employees lacked an awareness of the policies that
                        do exist on the rules of behavior, incident reporting, and specific issues policies. In
                        one functional area, employees were found to be using government equipment for
                        their own personal use and visiting prohibited websites.


                        OIG Report No. IT/A-02-07, Information Security Program Evaluation: Broadcasting Board of Governors, September 2002                                                                                                                                                                                                                                           5 .

                                                                                                                                                                         UNCLASSIFIED
                                       UNCLASSIFIED



          At the time of this review, BBG's management was in the process of hiring a
      contractor to develop and update its information system security policies and
      procedures. Effective implementation of security policies will help BBG manage-
      ment in addressing information security issues and ultimately result in the develop-
      ment and implementation of an improved information security program and protec-
      tion of systems and information. It is not clear when BBG's new or updated
      policies and procedures will be finalized.

      BBG Incident Response and Reporting
      Inadequate

          OIG found that BBG lacked an information security incident response process
      and had no external security incident reporting procedures. GISRA requires that
      agencies have procedures in place for detecting, reporting, and responding to
      security incidents. Toward that end, BBG's agency-wide information security
      program plan calls for each of its five functional area program officials to develop
      incident response and reporting procedures. However, four of the five program
      officials reported that the procedures had not been developed. The BBG informa-
      tion security program plan states that incidents should be reported to the CIO and
      the Office of Computing Services so that they can determine whether law enforce-
      ment agencies and the General Services Administration's (GSA) Federal Computer
      Incident Response Center need to be notified. However, only one of the five BBG
      functional areas overseeing information technology (IT) security has documented
      procedures in place to react to information security incidents.

          BBG officials informed OIG of only four information security incidents that
      occurred during FY 2001 and FY 2002, none of which was reported outside the
      agency. Two of the incidents were not reported outside the functional area where
      they occurred. In two of the four instances, several thousand dollars were spent
      bringing in outside consultants to evaluate the damage caused by the incidents and
      to perform a risk assessment of the functional area information systems and major
      applications.


         Recommendation 1: OIG recommends that the Broadcasting Board of Gov-
         ernors direct its Chief Information Officer to develop an agency-wide inci-
         dent response capability and formal security incident reporting procedures for
         its information systems.




6 .      OIG Report No. IT/A-02-07, Information Security Program Evaluation: Broadcasting Board of Governors, September 2002


                                       UNCLASSIFIED
                                            UNCLASSIFIED



     BBG Response

    In commenting on a draft of this report (see appendix C), BBG concurred with
this recommendation. BBG noted that procedures exist for reporting within the
agency; however, they need to be more detailed and uniformly applied.

     OIG Comments

    OIG accepts this response and considers this recommendation resolved. OIG
notes that GISRA requires that procedures include the notification of law enforce-
ment officials and other offices and authorities, and consultation with the Federal
Computer Incident Response Center. The center assists agencies with incident
prevention and response. A lack of agency reporting procedures to the Federal
Computer Incident Response Center hampers its ability to determine the scope of
the threat to the Federal government and may affect other agencies and Depart-
ments. As noted in its response, BBG's procedures should support an agency-wide
incident response capability and include required reporting outside the agency.
BBG should provide OIG with its formal security incident reporting procedures for
consideration in closing this recommendation.

System Security Plans Not Developed

    OIG found that BBG had not developed security plans at the systems or major
application level. Further, OIG found that BBG's approach to developing system
security plans was flawed because it focused solely on functional areas and not
individual systems. System security plans, which are required by GISRA, provide
an overview of system security requirements, describe established system controls,
and provide a means for improving the protection of information technology
resources. During the latter part of FY 2001, BBG completed security plans for
each of its five functional areas. However, it did not develop separate plans for
each of the systems within these functional areas. For example, OIG found that
one functional area grouped 20 of BBG's 31 reported systems for FY 2002 under
one security plan. As shown in table 2, not one plan addresses each of 14 key
elements of a security plan. In addition, five of the 14 elements are not addressed
by BBG's five functional area system security plans.




OIG Report No. IT/A-02-07, Information Security Program Evaluation: Broadcasting Board of Governors, September 2002   7 .

                                            UNCLASSIFIED
                                                 UNCLASSIFIED



               TABLE 2: GENERAL SUPPORT SYSTEMS AND MAJOR APPLICATIONS

                 General Support Systems                                                           Major Applications




                                           ○




                                                                                                                   ○
                                           ○




                                                                                                                   ○
  OMB Circular No.                             Controls Contained                OMB Circular No.                      Controls Contained



                                           ○




                                                                                                                   ○
  A-130 Requirement                             in Security Plan                 A-130 Requirement                      in Security Plan


                                           ○




                                                                                                                   ○
                                           ○




                                                                                                                   ○
                                           ○




                                                                                                                   ○
                                           ○




                                                                                                                   ○
                                           ○




                                                                                                                   ○
  Rules of the System                      ○           No                        Application Rules                            No




                                                                                                                   ○
  Training                                           Partially                   Specialized Training                      Partially *
                                           ○




                                                                                                                   ○
                                           ○




                                                                                                                   ○
  Personnel Controls                                   No                        Personnel Security                        Partially **
                                           ○




                                                                                                                   ○
  Incident Response Capability                       Partially                   Contingency Planning                      Partially *
                                           ○




                                                                                                                   ○
  Continuity of Support                              Partially                   Technical Controls                         Partially
                                           ○




                                                                                                                   ○
                                           ○




                                                                                                                   ○
  Technical Security                                 Partially                   Information Sharing                          No
                                           ○




                                                                                                                   ○
  System Interconnections                              No                        Public Access Controls                     Partially
                                           ○




                                                                                                                   ○
                                           ○




                                                                                                                   ○
                                           ○




                                                                                                                   ○
      * Two of three functional area security plans mentioned specialized training and contingency planning.
      ** One of three functional area security plans mentioned personnel security




                   BBG also reported on 23 systems in FY 2001 that were not reported under any
               of the functional areas in FY 2002. BBG could not provide OIG with information
               on these systems, including whether it had developed security plans for them.


                   Recommendation 2: OIG recommends that the Broadcasting Board of Gov-
                   ernors direct its Chief Information Officer to develop security plans to ad-
                   dress the information security requirements of each system.


                    BBG Response

                   In its written comments, BBG states that it initially designated five systems
               within the BBG for GISRA purposes and a security plan has been developed for
               each. Therefore, according to BBG, the objective of this recommendation would
               seem to have been met. BBG also states that OIG's recommendation appears to be
               based upon the assertion that the BBG had 31 reported systems for FY 2002.
               Further, BBG states that it had designated five systems and reported 31 different
               applications in use within these systems. BBG also states that an agency contractor
               recently concluded an analysis of one of the agency systems and recommended
               that consideration be given to dividing it into four separate domains.




8 .                OIG Report No. IT/A-02-07, Information Security Program Evaluation: Broadcasting Board of Governors, September 2002


                                                 UNCLASSIFIED
                                            UNCLASSIFIED



     OIG Comment

    BBG is not correct in its statement that the objective of this recommendation
appears to have been met. OIG's analysis of the functional area security plans
found that a total of 31 systems or applications were distributed across the five
functional areas designated by the BBG. BBG management informed OIG of its
intent to group all systems within a functional area under one security plan regard-
less of the systems' functions. This approach, OIG believes, does not meet
GISRA's requirements for system security plans. Further, as OIG notes in its
report, BBG has 23 other systems that are not reported under any of the functional
areas in FY 2002. These systems as well may need security plans in accordance
with GISRA.

Information System Contingency Plans Needed

     OIG found that BBG lacks system or major application contingency plans to
support all of its information technology operations. As required by OMB Circular
A-130, contingency plans ensure an agency's ability to recover from a disruption
and provide service sufficient to meet the minimal needs of users. They are essen-
tial in the event of a power outage, hardware failure, fire, storm, or malicious
intrusion.

   OIG found that BBG functional areas were in different stages of IT contin-
gency plan development. Specifically, the stages were:
•    one functional area was revising its contingency plan;
•    two functional areas were developing their contingency plans;
•    one functional area was relying upon a contract provider to have a contin-
     gency plan in place; and
•    one functional area was doing nothing to develop a contingency plan.
  Contingency planning at the functional level was identified as a weakness by
BBG's self-assessment in FY 2001, and it remains a weakness identified in its
POA&M.


    Recommendation 3: OIG recommends that the Broadcasting Board of Gov-
    ernors direct the Chief Information Officer to ensure that all functional areas
    and key systems and major applications have information technology contin-
    gency plans.



OIG Report No. IT/A-02-07, Information Security Program Evaluation: Broadcasting Board of Governors, September 2002   9 .

                                            UNCLASSIFIED
                                        UNCLASSIFIED



          BBG Response

          The BBG concurs with this recommendation.

          OIG Comment

           OIG accepts this response and considers this recommendation resolved. BBG
       should provide OIG with copies of its information technology contingency plans
       for functional areas, key systems and major applications for consideration in closing
       this recommendation.

       Need for an Information Security Training
       Program

           OIG found that BBG does not have an information security training program.
       BBG officials were not able to provide OIG with any statistical data on informa-
       tion security training that showed the classes taken, which employees took the
       classes, or the associated cost. Although the BBG Information Security Program
       Plan acknowledges the need for information security training and assigns the Office
       of Computing Services responsibility for developing and implementing an informa-
       tion security education program, BBG officials reported that no specific informa-
       tion security training was taking place. These officials stated that orientation
       training for new employees included an information awareness component; how-
       ever, no employees OIG spoke with could recall such a component when they
       completed orientation. Also, neither the BBG training office nor the Office of
       Security was aware of having implemented initial or refresher information security
       training for employees.


          Recommendation 4: OIG recommends that the Broadcasting Board of Gov-
          ernors, through its Chief Information Officer and training office director, de-
          velop and implement an information security training program that addresses
          the needs of all system users.


          BBG Response

          The BBG concurs with this recommendation.




10 .      OIG Report No. IT/A-02-07, Information Security Program Evaluation: Broadcasting Board of Governors, September 2002


                                        UNCLASSIFIED
                                            UNCLASSIFIED



     OIG Comment

   OIG accepts this response and considers this recommendation resolved. BBG
should provide OIG with a copy of its information security training program for
consideration in closing this recommendation.




OIG Report No. IT/A-02-07, Information Security Program Evaluation: Broadcasting Board of Governors, September 2002   11 .

                                            UNCLASSIFIED
                                     UNCLASSIFIED




12 .   OIG Report No. IT/A-02-07, Information Security Program Evaluation: Broadcasting Board of Governors, September 2002


                                     UNCLASSIFIED
                                            UNCLASSIFIED



                                                                                                      Appendix A



PURPOSE, SCOPE, AND METHODOLOGY
Section 3535 of GISRA directs each agency to conduct an annual independent
evaluation of its information security program and practices beginning in FY 2001.
In response to GISRA, OIG conducted a review with the specific objectives to: (1)
identify the BBG policies and procedures for securing information on its informa-
tion systems; and (2) determine whether BBG is complying with GISRA with
regard to establishing and ensuring the effectiveness of controls over information
resources. For its 2002 report on GISRA, the OIG evaluated BBG's progress in
implementing the requirements of the law.

    To fulfill the review objectives, OIG met with BBG officials from IBB, VOA,
Office of Cuba Broadcasting and system owners and information system security
officers from the Department of State whose systems connect to BBG systems.
OIG did not conduct a detailed review of BBG's grantee organizations, Radio Free
Europe/Radio Liberty, and Radio Free Asia. They are private, nonprofit organiza-
tions that own and operate their own information technology systems.

    In addition to interviews with appropriate BBG management and staff, OIG
performed a detailed analysis of BBG's system security plans and information
security program. OIG collected other relevant supporting information technology
documentation as appropriate. OIG obtained written comments on a draft of this
report and revised the report where appropriate. The BBG's comments are in-
cluded in appendix C. Staff from OIG's Information Technology Evaluation Area
performed this evaluation from February 2002 through July 2002. Contributors to
this report were Frank Deffer, James Davies, Anthony Carbone, Matthew Worner,
and Heather Rogers. Comments or questions about the report may be directed to
Mr. Deffer at defferf@state.gov or at (703) 284-2715 or to Mr. Davies at
daviesj@state.gov or at (703) 284-2673.




OIG Report No. IT/A-02-07, Information Security Program Evaluation: Broadcasting Board of Governors, September 2002   13 .

                                            UNCLASSIFIED
                                     UNCLASSIFIED




14 .   OIG Report No. IT/A-02-07, Information Security Program Evaluation: Broadcasting Board of Governors, September 2002


                                     UNCLASSIFIED
                                            UNCLASSIFIED
                                                                                                                      Appendix B
                                          Agency Comments




OIG Report No. IT/A-02-07, Information Security Program Evaluation: Broadcasting Board of Governors, September 2002           15 .

                                            UNCLASSIFIED
                                     UNCLASSIFIED




16 .   OIG Report No. IT/A-02-07, Information Security Program Evaluation: Broadcasting Board of Governors, September 2002


                                     UNCLASSIFIED
